UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




                   Impact Analysis


                Report No. OIG-AMR-54-07-01




                                              March 2007
                                       TABLE OF CONTENTS

BACKGROUND ......................................................................................1

OBJECTIVES, SCOPE, AND METHODOLOGY ........................................2

FINDINGS ..............................................................................................3

TRENDS SINCE IMPACT ANALYSIS........................................................3

        Case Intake ..................................................................................3
        Case Situations Pending Disposition .............................................4
        Regional Office Staffing .................................................................4
        Overage Percentage.......................................................................5

IMPRESSIONS OF IMPACT ANALYSIS ....................................................5

OTHER DEVELOPMENTAL FACTORS ....................................................7

DUE DATES...........................................................................................7

COMPLIANCE CASES ............................................................................8

APPENDIX

        Memorandum from the Associate General Counsel, Division of
        Operations-Management, "Impact Analysis (OIG-AMR-54)," dated March
        9, 2007
                                  BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroad and airline
industries. The Fiscal Year (FY) 2006 appropriation authorized 1,840 full-time
equivalents (FTE) that are located at Headquarters, 51 field offices throughout
the country, and 3 satellite offices for administrative law judges. NLRB
received an appropriation of $252,268,000 for FY 2006, less a rescission of 1
percent, leaving a net spending ceiling of $249,745,320. For FY 2007, the
Agency is operating under a Continuing Resolution at the FY 2006 ceiling.

Impact Analysis was established in General Counsel (GC) Memorandum 95-15,
Lightening the Regional Office Workload, dated August 22, 1995. This system
was designed to provide for differentiation of cases based on public impact.
The fundamental purpose of this system was to ensure that those cases that
require prompt resolution because of their public impact receive sufficient
resources and the Agency's best efforts. As initially proposed, cases were
divided into three categories: Category III (exceptional), Category II (significant),
and Category I (important). Category III cases have the greatest impact.
Impact Analysis was implemented in the Regional Offices on a staggered basis
beginning in January 1996.

The timeframes established initially were 7 weeks from receipt of an unfair
labor practice case (C case) to disposition of the C case for Category III, 11
weeks for Category II, and 15 weeks for Category I. Disposition for case
tracking purposes is the point at which the case is dismissed, deferred,
withdrawn, or settled; a complaint is issued; or a 10(k) notice of hearing is
issued. The timeframes for Category II and Category I cases were amended in
FY 2000 to 9 weeks and 12 weeks, respectively, where they currently remain.
The cases included in each category have been amended. Generally, more
cases are now categorized as exceptional or significant. Prior to implementing
Impact Analysis, the target for disposition in all cases was within 45 days.

Guidance was issued in 1998 to address compliance cases, which implement C
case remedial action and were not included in the original Impact Analysis
system. GC Memorandum 98-4, Impact Analysis for Compliance Cases, dated
February 20, 1998, divides compliance cases into three categories. The
timeframes established in GC Memorandum 98-4 are 91 days (13 weeks) from
receipt of the Board Order or Court Judgment to completion of the compliance
actions for Category III, 119 days (17 weeks) for Category II, and 147 days (21
weeks) for Category I. These timeframes have not changed. Prior to the
implementation of Impact Analysis for compliance cases, the target for
completion of compliance actions in all cases was within 80 days.


                                          1
                 OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of this audit was to evaluate the current usefulness of the Impact
Analysis program. Our scope was Impact Analysis for C cases and compliance
cases from implementation of the program through FY 2006.

We reviewed Division of Operations-Management (Operations-Management)
and GC Memoranda, including GC Memorandum 95-15 and GC Memorandum
98-4, and training manuals prepared by the Impact Analysis Regional Work
Group to identify policies and procedures regarding the implementation of and
amendments to Impact Analysis. We also reviewed current and archived NLRB
Casehandling Manuals for C cases and compliance cases to identify processing
timeframes for cases before and after Impact Analysis was implemented.

We interviewed staff in Operations-Management, Office of the General Counsel,
and the Regional Offices visited to clarify policy and to gather their impressions
regarding the current usefulness of Impact Analysis. We interviewed staff in
the Regional Offices visited to learn how cases were categorized and monitored.

We obtained case intake reports for the period from FY 1997 through FY 2006
and Regional Office staffing reports for the period from FY 1995 through FY
2006 from Operations-Management. From these reports, we calculated a
statistic on case intake per professional FTE to determine the change in
caseload relative to staffing changes since Impact Analysis was implemented.
We received reports from Operations-Management showing the number of case
situations pending disposition from FY 1993 through FY 2006 and reviewed the
trends during this time.

We obtained databases from the Case Activity Tracking System (CATS) for C
cases and compliance cases received during FY 2006. We computed statistics
and time lags for C cases and compliance cases received during FY 2006 for
the Agency and for the four Regional Offices visited. We reviewed the statistics
released under the Government Performance and Results Act (Results Act)
relating to Impact Analysis to identify the measurements used and the Agency's
performance against them.

This audit was performed in accordance with generally accepted government
auditing standards during the period of October 2006 through January 2007
at NLRB Headquarters in Washington, D.C. and the following Regional Offices:
Region 10 – Atlanta, Region 19 – Seattle, Region 25 – Indianapolis, and Region
29 – Brooklyn.




                                        2
                                      FINDINGS

Although case intake, cases pending, and staffing parameters have changed
significantly since Impact Analysis was initiated, the program remains a logical
mechanism to manage the Regional Office caseload. The program has the
broad support of the GC's managers at Headquarters, Regional Office
managers at all levels, and Board agents. The program is not administratively
burdensome, as the categorization has become routine in the Regional Offices.
Programming Impact Analysis into the Agency's new casehandling system is
not expected to be a significant use of resources.

The percentage of cases not meeting performance goals has decreased since
Impact Analysis was initiated. Each Regional Office met the Results Act goal
for FY 2006, and the Agency has met the Results Act goal in every year since
FY 2000. We believe several factors contributed to meeting the performance
goals. These factors include excusing a large number of overage cases, a
shrinking caseload, and changing the timeframes for completing a case from 45
days under the previous case management system to between 7 and 12 weeks
under Impact Analysis.


TRENDS SINCE IMPACT ANALYSIS

Case Intake

The number of C case situations received, as reported on Operations-
Management's National Performance Factors, has generally decreased since FY
1997, the first full year under Impact Analysis, with the exception of FY 2002.
The overall drop in case intake since 1997 is 26.4 percent.


                              C Case Situations Intake

           31,159
  32,000
  30,000            28,503                        27,926
                             27,06527,021                  27,528
  28,000                                                            26,076
  26,000                                    24,329                           24,422
                                                                                      22,922
  24,000
  22,000
  20,000
              1997 1998 1999 2000 2001 2002 2003 2004 2005 2006
                                             Fiscal Year




                                             3
Case Situations Pending Disposition

Staff in Operations-Management and the Regional Offices visited said that a
backlog in many Regional Offices was a main reason for developing Impact
Analysis. In the years prior to Impact Analysis, the backlog, as measured by
case situations pending disposition at year-end, had increased, peaking in FY
1997, the first full year under Impact Analysis. Since FY 1997, the number of
case situations pending disposition at year-end has decreased, and by FY 2006
was at pre-Impact Analysis levels.


                          C Case Situations Pending Disposition
                                   as of September 30
 8,000        7,434

 7,000                6,170 6,050
 6,000                               5,250
                                             4,802 4,792 4,838
 5,000                                                           4,138 3,935
                                                                             3,808
 4,000
 3,000
                  1997 1998 1999 2000 2001 2002 2003 2004 2005 2006



Regional Office Staffing

Since FY 1997, Regional Office professional staffing has decreased by 6
percent. The number of cases received has decreased more than the decrease
in staffing, resulting in a decrease in the number of cases received per
professional FTE from 33.2 cases in FY 1997 to 25.7 cases in FY 2006.


                             Case Intake Per Professional FTE
             35    33.2
                           31.1   30.2
                                         28.9
 Cases per




             30
   FTE




                                                24.7   28.5   29.3 28.1
             25                                                           26.8 25.7

             20
                   1997 1998 1999 2000 2001 2002 2003 2004 2005 2006
                                       Fiscal Year



                                                4
Overage Percentage

The Agency's Results Act measure states that 90 percent of C cases should be
resolved within their Impact Analysis timeframes. The calculation uses the
percentage of situations within Regional Office control, which is the number of
overage case situations unexcused by Operations-Management divided by the
number of case situations pending disposition. Cases are overage when the
case is still pending disposition on the last day of the month in which its time
target was exceeded. The FY 2006 Performance and Accountability Report
notes that cases that cannot be processed within the times established under
the Impact Analysis program for reasons that are outside the control of the
Regional Office are not considered overage, but are "excused."

In FY 1995, the last year before Impact Analysis was implemented, 21.2
percent of C cases pending disposition were overage and unexcused. Among
Regional Offices, the percentage ranged from 0.3 percent to 49.2 percent, with
4 Regional Offices having percentages greater than 40 percent. Since Impact
Analysis was implemented, the percentage of overage and unexcused cases has
generally declined in every year. In FY 2006, 1.1 percent of all case situations
pending disposition were overage and unexcused, with 1.7 percent in Category
III, 0.9 percent in Category II, and 0.5 percent in Category I. The percentages
ranged among Regional Offices from 0 percent to 4.7 percent.

Each Regional Office met the Results Act goal for FY 2006. The Agency has
met the Results Act goal in every year since FY 2000. We believe several
factors contributed to meeting the performance goals. These include excusing
a large number of overage cases, a shrinking caseload, and changing the
timeframes for completing a case from 45 days under the previous case
management system to between 7 and 12 weeks under Impact Analysis.


IMPRESSIONS OF IMPACT ANALYSIS

Original impressions regarding Impact Analysis were mixed. Many thought
that it was a good idea and would be helpful, particularly given the Agency's
decreased resources and staffing in the mid-1990s. A number of these
employees were in Regional Offices that had a Regional Director or manager
involved in developing the program. Some employees, particularly managers,
thought that Impact Analysis was unnecessary because cases could be done
within the previous timeframes and believed that they did not need to be told
what cases had the highest priority.

Most everyone interviewed thought that Impact Analysis is currently useful and
will be useful in the future. Regional Office employees who assign cases stated
that the program is not an administrative burden due to the small amount of



                                       5
additional time that categorizing the cases takes. Benefits of the program cited
by staff include:

•   Giving Board agents a clear idea of what cases are more important,
    enabling them to prioritize their workload;

•   Having a criteria to allow for the use of the alternative investigative
    techniques for cases with a lower priority;

•   Making it easier to manage travel;

•   Enabling Compliance Officers to prioritize workload when many Board
    orders are received, such as at the end of the fiscal year; and

•   Being able to quantify the difficulty of the work done by each employee for
    appraisal purposes.

Staff interviewed also noted some negative issues with Impact Analysis:

•   As presently configured, Category I is basically used only for deferrable
    cases. Because few cases are placed in Category I, maintaining that
    category appeared unnecessary;

•   Too many types of cases are in Category III, and those cases with
    statutory priority should be separated from other Category III cases;

•   The Category III cases are generally the most complex, but the Board
    agent has the least amount of time to investigate them; and,

•   Although the timeframes to complete C cases were fair and achievable, the
    timeframes for Category III and Category II in compliance cases are
    sometimes difficult to meet because those cases are more complex.

Operations-Management responded to the negative issues by stating that no
changes are needed for the categorization of either Category I or Category III
cases. A separate Category I is necessary because these cases are either
deferrable or involve conduct for which alternate means are available to the
charging party, and placing cases in this category allows the Regional Offices to
focus limited resources on cases having a greater public impact. No changes
are needed to Category III because these cases meet the definition of being
most central to the achievement of the Agency's mission and are being
processed timely.

Operations-Management also stated that time consuming compliance
investigations may preclude being able to meet goals; therefore, they


                                         6
established a list of situations that warrant being excused. For cases that are
less complex, the time goals are realistic and achievable.


OTHER DEVELOPMENTAL FACTORS

The Agency is currently in the process of defining preliminary requirements for
the Next Generation Case Management System (NGCMS), which will replace
CATS. Operations-Management stated that they intend to have Impact
Analysis programmed into NGCMS, just as it has been programmed into CATS.
Staff in the Office of the Chief Information Officer stated that because the
NGCMS will be a commercial off the shelf product, any additional programming
for Impact Analysis would be minimal.

DUE DATES

Impact Analysis sets timeframes for cases to be disposed of based on the
categorization of the case. Operations-Management noted, however, that the
last day of the month is the effective due date, regardless of where in the
month the Impact Analysis due date fell. Three of the four Regional Offices
visited stated that while striving to meet the Impact Analysis due date, they
manage caseload to the end of the month. Region 10 uses the Impact Analysis
due date instead of the end of the month to manage C cases. Staff interviewed
in Region 10 generally were in favor of using the Impact Analysis due date as
the deadline. Management in Region 10 cited this as a major reason why the
Region performed so well. The average time from the receipt of a charge to the
disposition date in Region 10 was 40.3 days, as compared to the national
average of 53.1 days.

Staff in other Regional Offices had different thoughts about whether they
should manage cases to the disposition due date instead of the last day of the
month. Some employees said that the crunch at the end of the month would
be eased, while others stated that the crunch would occur everyday. Staff also
noted that record keeping for supervisors and agents would be more difficult,
and that flexibility would be lost, possibly affecting investigation quality.

The following tables show the percentage of cases in which the disposition date
and the end of the month were met, without considering whether the cases
were excused.




                                       7
                        Met Impact Analysis Due Date

                           R – 10    R – 19    R – 25    R - 29   All Regions
  Category III (49 days)   71.3%      40.8%    28.0%     57.0%          51.1%
  Category II (63 days)    88.9%      68.7%    45.6%     75.0%          68.8%
  Category I (84 days)     97.0%      87.2%    85.7%     90.2%          86.8%
  Total                    86.0%      61.4%    40.8%     66.8%          65.7%

                            Met End of the Month

                           R – 10    R – 19    R – 25    R – 29   All Regions
  Category III (49 days)   90.4%      69.1%    65.7%     84.5%          78.6%
  Category II (63 days)    97.0%      91.9%    89.8%     94.4%          91.8%
  Category I (84 days)     98.0%      95.7%    92.9%     95.1%          96.5%
  Total                    95.6%      84.5%    79.7%     89.6%          88.2%

A Regional Office's caseload would certainly affect its ability to resolve cases
within Impact Analysis timeframes. The four Regional Offices' case intake per
FTE was comparable and ranged from 26 in Region 19 to 28.6 in Region 25.
Over 40 percent of cases received in Regions 25 and 29, however, were placed
in Category III, compared with 35 percent in Region 19 and 23 percent in
Region 10. Region 10, which managed cases to the Impact Analysis due date,
completed a significantly higher percentage of their cases by the Impact
Analysis due date and the end of the month. We think that managing to the
Impact Analysis due date had a positive impact on their success.


COMPLIANCE CASES

Compliance cases have generally increased since Impact Analysis was
implemented for compliance in 1998, but in FY 2006 compliance intake
decreased 14 percent. Approximately 63 percent of compliance cases received
during FY 2006 were still open in December 2006.

Of the cases received in FY 2006 that closed, 57 percent were closed before the
Impact Analysis due date and 69 percent were closed by the end of the month.
None of the compliance cases received during FY 2006 in the Regional Offices
visited that went overage were unexcused by Operations-Management.
Previously, we noted in Report No. OIG-AMR-35-03-02, Review of Compliance
Actions, that the majority of overage compliance cases are excused.

Operations-Management noted that the open cases included ones that were
pending enforcement in the U.S. Courts of Appeals, for which no compliance
work could be done. Further, a disproportionate percentage of cases were
received during August and September.


                                        8
APPENDIX
